No. 20

IN THE

SHUSTA GUMBS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent

MOTION TO PROCEED IN FORMA PAUPERIS

Kendal D. Silas (Georgia Bar No. 645959)
Federal Defender Program, Inc.
101 Marietta Street, NW
Suite 1500
Atlanta, Georgia 30303
404.688.7530, 404.688.0768 (fax)
Kendal_Silas@fd.org
Attorney for Petitioner Shusta Gumbs

No. 20

IN THE

SHUSTA GUMBS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent

PETITION FOR WRIT OF CERTIORARI
TO THE ELEVENTH CIRCUIT COURT OF APPEALS

Kendal D. Silas (Georgia Bar No. 645959)
Federal Defender Program, Inc.
1500 Centennial Tower
101 Marietta Street, NW
Atlanta, Georgia 30303
404.688.7530, 404.688.0768 (fax)
Kendal_Silas@fd.org
Attorney for Petitioner Shusta Gumbs

QUESTIONS PRESENTED
I.

Whether the district court erred in giving only the first
sentence of Mr. Gumbs’ request to charge on use of a
deadly weapon in light of the Circuit split of authority
on the intent required for § 111 offenses and in light of
this Court’s decision in United States v. Feola?

II.

Whether the district erred in refusing to give a lesserincluded offense instruction on simple assault?

i

TABLE OF CONTENTS
QUESTION PRESENTED .................................................... i
TABLE OF CONTENTS .......................................................ii
TABLE OF AUTHORITIES ............................................... iii
PETITION FOR A WRIT OF CERTIORARI ....................... 1
OPINION & ORDERS BELOW............................................ 1
JURISDICTION .................................................................... 2
STATUTORY PROVISIONS INVOLVED ........................... 3
STATEMENT OF THE CASE .............................................. 5
REASONS FOR GRANTING THE PETITION ................. 16
CONCLUSION .................................................................... 31
APPENDICES
Order of the United States Court of Appeals for the Eleventh
Circuit,
July 15, 2020 ....................... Pet. App. 1
Order Denying New Trial of the Northern District of Georgia
Denying § 2255 Motion, January 18, 2018 ...... Pet. App. 2

ii

TABLE OF AUTHORITIES
Page(s)
Cases
United States v. Brown,
592 Fed. Appx. 164 (4th Cir. 2014) .......... 19
United States v. Feola,
420 U.S. 671 (1975) ...................... 15, 25, 26
United States v. Caruana,
652 F.2d 220 (1981) ........................... 20, 21
United States v. Ettinger,
344 F.3d 1149 (11th Cir. 2003) ................ 18
United States v. Gumbs,
964 F.3d 1340 (11th Cir. 2020) .......... 16, 27
United States v. Gustus,
926 F.3d 1037 (8th Cir. 2019) .................. 23
United States v. Hanson,
618 F.2d 1261 (8th Cir. 1980) .................. 23
United States v. Hill,
526 F.2d 1019 (10th Cir. 1975) ................ 19
United States v. Jim,
865 F.2d 211 (9th Cir. 1989) .................... 19
United States v. Kimes,
246 F.3d 800 (6th Cir. 2001) .................... 18

iii

United States v. Kleinbart,
27 F.3d 586 (D.D.C. 1994) ....................... 19
United States v. Manelli,
67 F.2d 695 ............................................... 23
United States v. Moore,
846 F.2d 1163 (8th Cir. 1988) ................... 18
United States v. Ricketts,
146 F.3d 492 (7th Cir. 1998) ........ 19, 22, 23
United States v. Simmonds,
931 F.2d 685 (10th Cir. 1991) ............ 19, 20
United States v. Staggs,
553 F.2d 1073 (7th Cir. 1977) .................. 22
United States v. Sturgis,
48 F.3d 784 (4th Cir. 1995) ....................... 18
United States v. Taylor,
680 F.2d 378 (5th Cir. 1982) .................... 21
United States v. Woody,
55 F.3d 1257 (7th Cir. 1995) .................... 22
Statutes
18 U.S.C. 1501 ............................................. 12
18 U.S.C. § 111 ..................................... passim
18 U.S.C. § 1791 .......................................... 19
18 U.S.C. § 111(b) ........................................ 18
28 U.S.C. § 1254 ............................................ 2
§ 111 ...................................................... passim
§ 111(b) ................................................. passim

iv

No.

IN THE

Shusta Gumbs,
Petitioner,
v.
United States of America,
Respondent

PETITION FOR WRIT OF CERTIORARI
TO THE ELEVENTH CIRCUIT COURT OF APPEALS

Shusta Gumbs herein seeks a writ of certiorari to review the
judgment of the United States Court of Appeals for the Eleventh Circuit.
OPINIONS BELOW
The published opinion of the United States Court of Appeals for the
Eleventh Circuit, dated July 15, 2020, is attached hereto as Appendix A.
1

JURISDICTION
Jurisdiction to review the judgment of the Court of Appeals by writ
of certiorari is conferred upon this Court by 28 U.S.C. § 1254(1).
Petitioner was convicted after jury trial in the United States District
Court of the Northern District of Georgia. A panel from the United States
Court of Appeals for the Eleventh Circuit affirmed his conviction on July
15, 2020.

2

STATUTORY PROVISIONS INVOLVED
Title 18, United States Code § 111 provides:
(a) Whoever –
(1) forcibly assaults, resists, opposes, impedes, intimidates or
interferes with any person designated in section 1114 of this
title while engaged in or on account of the performance of
official duties . . . shall where the acts in violation of this
statute constitute only simple assault, be fined under this title
or imprisoned not more than one year, or both . . .
(b) Whoever, in the commission of any acts described in
subsection (a), uses a deadly or dangerous weapon (including
a weapon intended to cause death or danger but that fails to
do so by reason of a defective component) or inflicts bodily
injury, shall be fined under this title or imprisoned not more
than 20 years or both.
§§ 111.

3

STATEMENT OF THE CASE
On October 21, 2016, officers attached to a United States Marshals
fugitive task force attempted to arrest Shusta Gumbs on outstanding
local warrants. 1 Mr. Gumbs evaded the officers’ attempt to arrest him.
This case arises from that encounter.
The Marshals task force unit had two pictures of Mr. Gumbs and
information regarding the general area where he might be located. The
officers located Mr. Gumbs in a small parking lot in the Atlanta West
End area. Mr. Gumbs was sitting in the driver’s seat of a black Chevrolet
Malibu sedan. A sliding gate provided the one means of entrance and
exit from the parking lot.
The members of the task force team were driving in unmarked
vehicles. They decided to use those vehicles to surround Mr. Gumbs’ car
and block it in. The chart found on the next page is an attempt to provide
the reader with an outline of the vehicles along with their drivers,
passengers, and a rough approximation of their appearance.

1

There were outstanding arrest warrants for Mr. Gumbs in
Douglas County, Georgia on criminal charges and in Fulton
County, Georgia on a probation violation petition.
4

The

pictures shown are not the actual vehicles involved, but they do show the
makes and models described in the testimony.
Driver/Passengers

Vehicle Color, Make, Model, Type

Shusta Gumbs

Black Chevrolet Malibu Sedan

Officer Hill

Blue Dodge Durango SUV

Officer Stevens
(with Ralston and Baker)

Grey Dodge Caravan Minivan

Officer Lempka (with Siler)

Blue Chevrolet Avalanche Truck

Officer Heinze

Brownish Dodge Durango SUV

Approx. Appearance 2

Officer Hill drove into the parking lot and past Mr. Gumbs’ vehicle.
In the process, he confirmed that it was Mr. Gumbs sitting in the
Chevrolet Malibu. Officer Hill pulled his Dodge Durango behind Mr.
Gumbs’ vehicle.

Officer Stevens drove his Dodge Caravan into the

parking lot and activated its blue lights. Two other officers, Ralston and
Baker, were travelling with Officer Stevens. Officer Stevens parked in
front of the Malibu.
Mr. Gumbs, who startled by their presence, placed the Malibu in
reverse and backed up approximately 10 to 15 feet, but was blocked by

2

Colors not meant to be exact, but are approximate for reference.
5

Officer Hill as Officer Hill pulled his Durango behind the Malibu. As this
was happening, Deputy Marshals Officer Frank Lempka3 pulled his
Chevrolet Avalanche into the parking lot and parked perpendicular to
Officer Stevens’ Caravan.

The relative positions of those three law

enforcement vehicles and the Malibu was introduced at trial in the form
of a rough diagram by Officer Lempka. That diagram and a second copy,
which has been enhanced with annotations for the convenience of the
reader, are shown below.
Officers Stevens, Ralston and Baker all got out of the Caravan and
approached the Malibu with their guns drawn. They yelled commands
for Mr. Gumbs to turn off the car, get out, and surrender himself. They

3

Hereinafter referred to as Officer Lempka.
6

were wearing police vests. At that point, in order for Gumbs’ Malibu to
get to the parking lot exit to escape the officers, it would have to go
between Lempka’s Avalanche and Stevens’ Caravan.4

As shown in

Officer Lempka’s diagram, there was space between Lempka’s Avalanche
and Stevens’ Caravan. However, the amount of space between the two
vehicles was a matter about which the testimony varied. 5 At least one
officer testified that the space was as large as four to five feet or the
approximate width of the Chevrolet Malibu.
Officers Lempka and Siler got out of the Avalanche and ran to the
driver’s side of the Malibu. Lempka and Siler stood approximately four
to five feet behind the officers who had already congregated there.
Officers Ralston, Stevens and Baker stood approximately two to three
feet from the driver’s side of the Malibu. Officers Ralston and Stevens
stood near the driver’s side window. Officer Baker stood to the right of
Stevens near the driver’s side door handle. Officer Hill was standing near

4
5

See blue arrow on the annotated diagram.
Officer Hill testified that there was “just enough distance where if
he attempted to squeeze — someone attempted to squeeze through
[the Caravan and the Avalanche] that they would have to come in
contact with one of the two vehicles.”
7

the post that separates the front and rear passenger compartments of the
Malibu.
The Malibu’s window was either partially down or all the way down.
The officers continued to yell for Mr. Gumbs to turn off the car and get
out, but Mr. Gumbs continued to sit in the Malibu, still on and in drive.
Mr. Gumbs looked forward, around the parking lot, and sometimes down
at the floorboard inside his vehicle. His only words were, “What’s going
on?” Mr. Gumbs did not express any threats towards the officers.
As officers were still giving commands to Mr. Gumbs, Officer
Lempka decided that he wanted to get his expandable baton to break the
Malibu’s windows. While Officer Lempka testified that he said aloud he
was going to get his baton, other officers did not hear him. Lempka ran
or jogged to the driver’s side of the Avalanche, opened the driver’s door,
stooped down, and retrieved the baton from a compartment in the driver’s
side door. The passenger cab of the Avalanche was taller than Officer
Lempka even when he was standing. Mr. Gumbs could not have seen
Lempka when he was behind the Avalanche from his vantage point
seated in the Malibu.
8

Meanwhile, as Officer Lempka was in the process of retrieving his
baton, Officers Stevens and Ralston were reaching into the driver’s
window of the Malibu in order to unlock the door and open it or to turn
off the ignition. Stevens testified that Mr. Gumbs leaned away from him
and towards the middle of the front passenger compartment as Officer
Stevens reached.

Mr. Gumbs apparently mistakenly thought that

Stevens was trying to grab him. Officer Ralston testified that the driver’s
side door of the Malibu vehicle was popped open and that at that moment
Mr. Gumbs hit the accelerator. Around that same time, Officer Lempka
rounded the rear corner of the Avalanche and was running between the
Avalanche and the Caravan, back towards the Malibu.
When the Malibu surged forward, it hit the Caravan on the front
driver’s side quarter panel area, bounced sideways and continued moving
forward between the Caravan and the Avalanche. In the process, Officer
Lempka was pinned between the Malibu and the Caravan as the Malibu
went past. After rounding the rear of the Caravan, the Malibu collided
with the rear, passenger-side quarter panel of Officer Heinze’s Durango,
which had just entered the gate to the parking lot. The Malibu then
9

traveled through the open gate and turned left. At the next intersection,
a short distance away, the Malibu collided with the passenger side of a
civilian vehicle as Mr. Gumbs navigated a right turn.
After a car chase, officers found the Malibu in the parking lot of an
apartment complex. It was running, in park, with no one inside. The
driver’s side door was open revealing deployed air bags. Several days
later, officers arrested Mr. Gumbs without incident. Officer Lempka
sustained injuries to his leg, foot and ankle. After undergoing physical
therapy, Officer Lempka returned to work several months later when it
was determined that his injuries were completely healed.
Mr. Gumbs was indicted on two counts of violating 18 U.S.C. §
111(a) and (b) by “using a deadly or dangerous weapon, that is, a motor
vehicle,” to “knowingly and willfully forcibly assault, resist, oppose,
impede, and interfere with a federal officer….” Count One related to
Officer Lempka. Count Two related to the six other officers who entered
the parking lot in the attempt to arrest Mr. Gumbs.
The case was tried twice. The first trial resulted in a deadlocked
jury on both counts. In the second trial, the jury convicted Mr. Gumbs
10

on Count One, which related to Officer Lempka, and on Count Two as to
Officers Ralston, Baker, and Stevens. The jury acquitted Mr. Gumbs on
Count Two as to Officers Hill, Siler, and Heinze.
During the trials, the parties argued competing positions over
whether Mr. Gumbs intentionally or accidentally injured Officer
Lempka, whether he had intentionally directed force at any of the
officers, and whether he had used his car as a deadly or dangerous
weapon. The Government argued that Mr. Gumbs had intentionally
attempted to run down Officer Lempka. The Defense maintained that
Mr. Gumbs’ car made contact with Lempka accidentally: Mr. Gumbs had
not attempted to harm anyone, had not attempted to use his car as a
weapon, but instead was solely focused on using it as a mode of
transportation to flee through the only available path of escape. The
Defense argued that the triggering event for Mr. Gumbs had been when
the officers had succeeded in opening his car door. That was when Mr.
Gumbs reacted by slamming the accelerator before he saw or realized
that Lempka was in the path ahead.

11

Mr. Gumbs submitted several jury instruction requests to trial
court.

The Court gave only sentence from Mr. Gumbs’ requested

instruction regarding the offense element use of a deadly or dangerous
vehicle.

The court did not give any of the remaining requested

instructions, including one on the element of “forcibly.” Mr. Gumbs also
requested that the jury be given a lesser-included offense instruction on
simple assault under 18 U.S.C. § 111(a).
The trial court did not give Mr. Gumbs’ request to charge on
forcibly. It gave only the first sentence of Mr. Gumbs’ request to charge
on deadly or dangerous weapon. The trial court refused to give the lesserincluded offense instruction. 6
The jury that convicted Mr. Gumbs asked the trial court the
following question, “Is it (the car) still a deadly weapon if you don’t intend
to use it that way?” The defense urged the Court to answer the question,
“No.” The trial court refused to do so. Instead, the Court said that it
would re-read to the jury the instruction that it had previously given to

6

Mr. Gumbs also requested a lesser-included offense instruction on
obstruction of a process server in violation of 18 U.S.C. 1501,
which the trial court also denied.
12

the jury on what is a deadly or dangerous weapon. The court’s instruction
on deadly or dangerous weapons did not include a clear expression of the
mens rea associated with making an object a weapon, which was what
the jury’s question concerned. Mr. Gumbs asked the Court to include in
its re-instruction the portion of its charge addressing the “knowingly and
willfully” mens rea. The court re-read the entirety of its instruction to
the jury relating deadly or dangerous weapons, which did not address the
necessary mens rea.
The fact that the jury was unclear on this point was not surprising.
The trial court received almost the identical question from the jury that
had hung in the first trial: “Regarding the use of a vehicle as a weapon
we need clarity regarding intent. Specifically, is the use of a vehicle in a
way that is capable of causing death or injury sufficient to classify it as a
weapon even if the person using it did not intend to harm anyone?” The
first jury also asked three other questions related to issues addressed in
the aforementioned defense requests to charge and another charge that
was not given.

13

The district court sentenced Mr. Gumbs to serve 180 months
imprisonment on Count One to be followed by 55 months imprisonment
on Count Two for a total of 235 months in custody. The court also
sentenced Mr. Gumbs to serve three years on supervised release. Mr.
Gumbs is currently serving the custodial sentence at FCI Edgefield,
South Carolina.
On appeal, Mr. Gumbs argued that the district court had erred in
four respects in its handling of the jury instructions: (1) by failing to give
his request to charge on the meaning of “forcibly;” (2) by failing to give
critical portions of his request to charge on use of a deadly or dangerous
weapon; (3) by failing to adequately respond to the jury’s question asking
if intent is necessary to make a vehicle a deadly weapon; and (4) by not
giving his request to charge on the lesser-included offense of simple
assault. Mr. Gumbs also argued that the evidence was insufficient to
support to the jury’s verdict on Count Two with respect to Officers
Ralston, Stevens, and Baker.
In a published opinion, the Eleventh Circuit rejected each of Mr.
Gumbs’ claims. A copy of the opinion is attached. The Eleventh Circuit
14

held that the district court’s instructions adequately addressed the points
raised in Mr. Gumbs’ requests to the extent those points were correct.
The Eleventh Circuit also concluded that the district court did not err in
its response to the jury’s question and that the evidence at trial was
sufficient to convict Mr. Gumbs as to Officers Ralston, Stevens and
Baker.
REASON FOR GRANTING THE WRIT
I.

Given the split in authority on the mens rea required for 18
U.S.C. § 111 offenses and this Court’s opinion in United States v.
Feola, this Court should grant a writ of certiorari to address the
failing in jury instructions that left Mr. Gumbs exposed to
conviction under § 111(b) without the jury ever finding that he
intended to use the car he drove as a weapon.
Mr. Gumbs requested a jury instruction, which stated:
A motor vehicle is a dangerous or deadly weapon if it is used
in a way that is capable of causing death or serious bodily
injury. For a car to qualify as a deadly or dangerous
weapon, the defendant must use it as a deadly or dangerous
weapon and not simply as a mode of transportation.
To show that a weapon was ‘used,’ the Government must
prove that it was actively employed in some way to further or
advance the forcible assault, resistance, opposition, impeding
or interference with a federal officer. ‘Use’ can occur through
intentionally displaying a weapon during the course of
forcibly assaulting, resisting, opposing, impeding or
interfering.
15

The district court gave only the first sentence of this request to charge.
However, the excised portion was critical for informing the jury of the
intent necessary to convert an innocuous object like a car into a deadly
or dangerous weapon.
The Court of Appeals held the district court did not err in giving
only the first sentence of the sentence of Mr. Gumbs’ requested charge.
The Court held that the remainder of the Mr. Gumbs’ requested charge
was substantially covered by the trial court’s instructions and that Mr.
Gumbs’ defense was not seriously impaired. United States v. Gumbs, 964
F.3d 1340, 1348 (11th Cir. 2020). Contrary to the Eleventh Circuit’s
assertion, the instructions given by the district court did not cover the
concept that use of the vehicle in a manner other than as a mere of mode
of transportation is a requirement. The district court instructions stated
only the following in regards to what constitutes a deadly or dangerous
weapon:
A ‘deadly or dangerous weapon’ means any object that can
cause death or present a danger or serious bodily injury. A
weapon intended to cause death or present a danger of
serious bodily injury but that fails to do so by reason of a
defective component, still qualifies as a deadly or dangerous
weapon.
16

A motor vehicle is a dangerous or deadly weapon if it is used
in a way that is capable of causing death or serious bodily
injury.7
The district court’s instruction was incomplete and misleading. A
critical flaw in the district court’s instruction is that it fails to convey
that for innocuous objects like a car intentional, offensive use of the
object is necessary to make the object a deadly or dangerous weapon.
That concept is conveyed in the portion of Mr. Gumbs’ request to charge
that the district court did not give. It is possible that a vehicle could be
used in a manner capable of causing death or serious bodily injury but
without intending to use it as a weapon or for the purpose of attempting
to do harm to another person or threatening to do so. The district
court’s instructions left Mr. Gumbs exposed to conviction for aggravated
assault based upon negligent or reckless use of the car.

Courts

have recognized that for purposes of § 111, there are two classes of
objects that qualify as deadly or dangerous weapons: (1) those that are
inherently dangerous like a gun or knife; and (2) those that are
normally innocuous but which may become a weapon given its capacity
and manner of use to “endanger life or inflict great bodily harm.” United

7

The first two sentences of the District Court’s charge were taken
from the pattern jury instruction. See Eleventh Circuit Pattern
Jury Instruction (Criminal Cases) O1.2 (2017). The last sentence
of the Court’s charge was the first sentence of Mr. Gumbs’ request
to charge on use of a deadly or dangerous weapon.
17

States v. Moore, 846 F.2d 1163, 1166 (8th Cir. 1988); United States v.
Sturgis, 48 F.3d 784, 787 (4th Cir. 1995). In Sturgis, the Fourth Circuit
observed, “[I]nnocuous objects or instruments may become capable of
inflicting serious injury when put to assaultive use.” Id. Other Circuit
Courts have also said that a vehicle does not constitute a deadly or
dangerous weapon if it is used solely for transportation, including flight.
United States v. Arrington, 309 F.3d 40, 45 (D.D.C. 2002); United States
v. Wallace, 590 F.3d 778, 783 (8th Cir. 2017).
A central platform for the Eleventh Circuit’s ruling is its position
that § 111 is a general intent crime. The Eleventh Circuit expressed in
its opinion in this case:
To the extent that Gumbs believes [the second sentence of
his request to charge] was necessary to convey that the jury
could not convict unless he intended to use the car as a
weapon, that would be a misstatement of law. We have held
that § 111 is a statute of general intent, so Gumbs need only
to intend to use the car. See United States v. Ettinger, 344
F.3d 1149, 1161 (11th Cir. 2003). He did not need to intend
to use the car as a weapon. See 18 U.S.C. § 111(b) (requiring
only that the defendant “use a deadly or dangerous
weapon”).
Id. (Punctuation omitted).
The Eleventh Circuit’s position in this case highlights the
existence of a Circuit split. The majority view appears to be that § 111
is a general intent crime. See Ettinger, supra; United States v. Kimes,
18

246 F.3d 800, 808 (6th Cir. 2001); United States v. Ricketts, 146 F.3d
492, 497 (7th Cir. 1998); United States v. Kleinbart, 27 F.3d 586, 592
(D.D.C. 1994); United States v. Jim, 865 F.2d 211, 215 (9th Cir. 1989);
United States v. Hill, 526 F.2d 1019, 1027 (10th Cir. 1975). 8
There have been cases before other Circuit courts where § 111 has
been treated as a specific intent offense. In United States v. Simmonds,
931 F.2d 685 (10th Cir. 1991), the defendant was charged with two
counts of assault on a federal officer in violation of 18 U.S.C. § 111(a)(1)
and a count of possessing a prohibited object intended to be used as a
weapon in violation of 18 U.S.C. § 1791(a)(2). The charges stemmed
from encounter where the defendant had wielded razor blades at the
officers. Simmonds defended the case on a theory of the self-defense
that was supported by evidence of post-traumatic stress disorder.

8

In an unpublished opinion in United States v. Brown,
Unpublished, 592 Fed. Appx. 164, 166 (4th Cir. Nov. 14, 2014), a
panel of the Fourth Circuit Court of Appeals held that the district
court had not erred in denying the defendant’s request for a
willfulness instruction, because “[s]pecific intent to violate the
statute is not required to be convicted under 18 U.S.C. § 111.”
19

On appeal, he challenged the lack of a jury instruction on
diminished capacity, although one had not been requested and that
theory had not been asserted at trial. In affirming Simmonds’s
conviction, the Tenth Circuit stated, in part, “Recognizing that the
charged offenses are ‘specific intent’ crimes, the court instructed the jury
that it could not find Simmonds guilty of [the assault counts] unless it
determined that he acted ‘knowingly and willfully.’” 931 F.2d at 687
(emphasis added). The trial court had instructed the jury that “[a]n act
is done ‘knowingly’ if done voluntarily and intentionally, and not
because of mistake or accident or other reason.” Id. (emphasis added).
In addition to the standard instructions on specific intent, the court
gave the jury a separate instruction on self-defense. Id. The Tenth
Circuit further expressed that even where the Court has a duty to
instruct the jury on diminished capacity, the standard specific intent
instruction is adequate for that purpose. Id. at 689.
In United States v. Caruana, 652 F.2d 220 (1st Cir. 1981), the
defendant was convicted of two counts of violating 18 U.S.C. § 111 by
forcibly intimidating two FBI who had gone to his home to serve a
20

grand jury subpoena. During the encounter, Caruana had released two
Doberman Pinscher dogs from inside him home and onto a porch where
the officers were standing. A dog bit one of the officers. The trial court
instructed the jury through multiple instructions that specific intent
was required. Caruana appealed the trial court’s denial of several
motions for judgment of acquittal. 652 F.2d at 221. The First Circuit
found that there was sufficient evidence for the jury to have found that
Caruana had the specific intent to intimate the FBI agents while they
were engaged in their official duties. Id. at 222. The Court of Appeals
expressed that there was an irresistible inference that [Caruana] had
deliberately rather than accidentally let the dogs out” and that there
was ample support for an inference that Caruana’s “purpose [had been]
to intimate the agents. Id. (emphasis added).
In United States v. Taylor, 680 F.2d 378 (5th Cir. 1982), the
defendant, who was a United States postal carrier, was convicted of
forcibly assaulting his supervisor. Taylor sought to argue provocation
as a defense in closing but was prevented from doing so by the trial
court. 680 F.2d at 380. The judge gave the jury instruction on “willful
21

intent.” Id. at 381. The jury later sent a note indicating that it was
deadlocked after two ballots and confused as to the meaning of “willful
intent.” Id. The judge gave the jury supplemental instruction on
temporary insanity, although the judge did not mention term in his
supplemental charge. Id. The Fifth Circuit upheld the charge under the
circumstances while noting, “It is true that the appellant’s defense was
lack of specific intent.” Id. (emphasis added).
In some Circuits, there is even discordant case law within the
Circuit as to the required mens rea for § 111. For example, the panel of
the Seventh Circuit which decided Ricketts relied upon the later of two
preceding conflicting panel decisions from that Circuit. Ricketts, 146
F.3d at 497. See United States v. Woody, 55 F.3d 1257, 1266 (7th Cir.
1995) (general intent); United States v. Staggs, 553 F.2d 1073, 1076 (7th
Cir. 1977) (specific intent). Even though the court in Woody held that §
111 is a general intent crime, it expressed that the government may
establish proof of a forcible assault by demonstrating that the defendant
made ‘such a threat or display of physical aggression toward the officers

22

as to inspire fear or pain, bodily harm, or death.” Ricketts, 146 F.3d at
497 (emphasis added).
While it appears that in the Eighth Circuit the prevailing view is
that § 111 is a general intent crime, there is authority to the contrary
within that same Circuit. See United States v. Gustus, 926 F.3d 1037,
1040 (8th Cir. 2019). In Gustus, a panel of the Court recently held that
§ 111 is a general intent crime. 926 F.3d 1037, 1043 (8th Cir. 2019).
The panel based its decision on the prior Eighth Circuit case of United
States v. Hanson, 618 F.2d 1261, 1265 (8th Cir. 1980), which held that §
111 is a general intent crime. However, in United States v. Manelli, 67
F.2d 695, 696, the Eighth Circuit held that “[s]pecific intent is an
essential element of the crime of assaulting a federal officer in the
performance of his duties.” The Gustus panel followed Hanson, because
it was the earlier of the two prior decisions. Gustus, 926 F.3d at 1040.
Circuit Judge Kelly issued a concurring opinion in Gustus and
noted the confused state of the law in the Eighth Circuit, where she
sits, on the topic of whether § 111 is a general or specific intent crime.
Gustus, 926 F.3d at 1041-1044 (J. Kelly, concurring). Judge Kelly noted
23

that there is case law in the Circuit taking the opposite positions on the
question and that the Court’s model instructions are consistent with
treatment of § 111 as a specific intent offense. Id. at 1042-1043. In
conclusion, Judge Kelly noted, “Whether § 111 is a specific-intent or
general-intent crime is a difficult question to which we have given
conflicting answers, but one that only the court sitting en banc can
resolve.” Id. at 1043. This Court could resolve the question for all
courts of the land.
That difference between whether an offense is treated as general
versus specific intent is impactful. It shapes the legal framework for
the jury’s decision and the determinations of what evidence can be
presented to the jury. The divergence in authority leads to inconsistent
application of the law. It is the reason that some defendants are able to
present successful and meritorious trial defenses, while others, like Mr.
Gumbs, are hindered and possibly convicted as a result. The stakes are
high, as can be seen from the 235-month sentence that Mr. Gumbs is
currently serving.

24

It seems that the decisions of many courts on the mens rea for §
111 has strayed far from what this Court expressed in United States v.
Feola, 420 U.S. 671 (1975). In Feola, this Court addressed whether
conspiracy to commit an assault under 18 U.S.C. § 111 requires proof
that the parties to the conspiracy were aware the person to be assaulted
was a federal officer. This Court held that “where knowledge of the
facts giving rise to federal jurisdictional is not necessary for conviction
of a substantive offense embodying a mens rea requirement, such
knowledge is equally irrelevant to questions of responsibility for
conspiracy to commit that offense.” 420 U.S. at 696. Before reaching
that conclusion, the Court examined the nature of the mens rea
required for the substantive offense of assault on a federal officer under
§ 111. This Court did not hold § 111 to be a statute of general intent.
Instead, it said, “All the statute requires is an intent to assault, not an
intent to assault a federal officer.” Id. at 684 (emphasis added). This
Court said that § 111 does require criminal intent and that the
defendant must understand the nature of his act. Id. “In order to incur

25

criminal liability under § 111, an actor must entertain . . . the criminal
intent to do the acts therein specified.”
Given the construction that the district court and the Court of
Appeals placed on § 111 in this case, the Government was effectively
relieved of its burden of having to prove that Mr. Gumbs had the intent
to assault the federal officers. Mr. Gumbs was subject to criminal
liability merely for driving the Malibu forward with knowledge and
volition. That is not consistent with an intent to assault. Moreover,
Feola indicates that the mens rea requirement also attaches to the use
of a deadly or dangerous weapon under § 111(b). The defendant must
have an intent to use a deadly or dangerous weapon. For an innocuous
object like a car, that means that the defendant must have an intent to
convert the use from simply a means of transportation to a mechanism
for exerting or threatening offensive force upon another. The district
court did not instruct the jury as to that requirement and rejected Mr.
Gumbs’ efforts to supply the Court with the necessary instruction for
the jury. The jury even sought additional instruction, asking the
question, “Is it (the car) still a deadly weapon if you don’t intend to use
it that way?” The question highlighted the obvious deficiency in the
Court’s instructions. The jury’s question went unanswered.
The district court’s instructions to the jury on mens rea fall far
short of what was required to comport with the statute. The Court of
26

Appeals has sanctioned that failing. This Court should grant certiorari
to correct the miscarriage of justice in this case and to avoid the
inevitable result that others will suffer the same fate if the Court does
not clearly define the mens rea required for conviction under 18 U.S.C. §
111.
II.

The district court erred in refusing to give the jury a lesser-included
offense instruction on simple assault, where the facts and the legal
instructions given to the jury allowed for the possibility that the
jury could have found both that the car was used forcibly and that
Mr. Gumbs did not intend to use the car as a weapon.
Mr. Gumbs requested that the jury give the jury a lesser-included

offense instruction on simple assault. The district court refused to do so.
On appeal, the Eleventh Circuit upheld the district court’s denial of the
lesser-included-offense instruction, stating, “There is no way a rational
jury could find Gumbs guilty of simple assault but not forcible assault
with a deadly weapon, because the only action that could form the basis
of an assault was Gumbs’s gunning his car.” Gumbs, 964 at 1349. The
Court of Appeals was incorrect. Given the factual circumstances of this
case and the jury instructions that the district court gave to the jury, the
jury could have concluded that there an element of force existed but that
Mr. Gumbs did not use the car as a dangerous or deadly weapon.
27

Mr. Gumbs was charged with five means of violating § 111(a) –
assault, resist, oppose, impede, and interfere with. It is entirely possible
that the jury did not find that Mr. Gumbs assaulted the officers who were
on the side of his car — Ralston, Stevens, and Baker. Instead, it is
possible that the jury found that Mr. Gumbs committed one of the other
means of violating § 111(a), namely resist, oppose, impede or interfere
with. Aggressive or offensive force is not inherent to the gravamens of
those offenses. Although Mr. Gumbs requested a jury instruction on the
element of “forcibly,” the district court denied that request. The jury was
not expressly instructed that aggressive or offensive force is an element
of all § 111 offenses. The jury could have found that the kinetic force of
the car was sufficient to satisfy the “forcibly” element of § 111,
particularly with respect to the charged offenses of resisting, opposing,
impeding, or interfering with.
Nevertheless, the jury could have concluded that Mr. Gumbs did
not actually use the car as a deadly or dangerous weapon. It is evident
from the question the jury posed to the Court that it had some pause
about whether Mr. Gumbs actually used the car as a deadly or dangerous
28

weapon. The jury asked, ““Is it (the car) still a deadly weapon if you don’t
intend to use it that way?” The jury could have reasonably concluded
that Mr. Gumbs did not intend to direct offensive force against Officers
Ralston, Stevens, and Baker, and that instead he simply used the car to
flee from them. Under these circumstances, the jury could have plausibly
found circumstances sufficient to convict on § 111(a) as to those officers
but not § 111(b). Therefore, the district court erred in not giving the
requested lesser-included-offense instruction on § 111(a).
This issue is compelling. If Mr. Gumbs had been convicted on §
111(a) instead of § 111(b), the maximum punishment for that offense
would have been one year instead of twenty years. Mr. Gumbs received
a 55-month sentence in prison on Count Two consecutive to the 180month prison term he received on Count One.

Fifty-five months is

greatly more than twelve months in prison. Whether the lesser-includedoffense instruction is given may also mean the difference of whether one
retains his civil liberties, as he would with a misdemeanor, and avoids
the enduring effects of a felony conviction on his employment and life
prospects.
29

CONCLUSION
For the foregoing reasons, the petition for a writ of certiorari to the
United States Court of Appeals for the Eleventh Circuit should be
granted.
Respectfully submitted this 14th day of December, 2020.
Respectfully submitted,
s/ Kendal D. Silas
Kendal D. Silas
Georgia State Bar Number 645959
Federal Defender Program, Inc.
1500 The Centennial Tower
101 Marietta Street, NW, Suite 1500
Atlanta, Georgia 30303
404.688.7530, 404.688.0768 (fax)
Kendal_Silas@fd.org
Attorney for Petitioner Shusta Gumbs

30

